No:
IN THE SUPREME COURT OF THE UNITED STATES
SHANE MAURITZ VANDERGROEN,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner Shane Mauritz Vandergroen, through undersigned counsel and
pursuant to Sup. Ct. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for
Writ of Certiorari filed in the above-styled matter was sent in an envelope via thirdparty commercial carrier for delivery within three days, addressed to the Clerk of
the Supreme Court of the United States, on the

9 th day of December, 2020, which

is timely pursuant to the rules of this Court.

Dated: December LI, 2020

STEVEN G. KALAR
Fede 1 Public Defender

JER
AT EWS*
Assistant Federal Public Defender
* Counsel of Record
1301 Clay Street, Suite 1350N
Oakland, CA 94612
(510) 637- 3500
jerome_matthews@fd.org

